            versight

            eport

         DEFENSE CONTRACT AUDIT AGENCY’S ROLE
             IN INTEGRATED PRODUCT TEAMS



Report Number D-2001-6-003           March 23, 2001


             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Follow-up and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Follow-up and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAM                   Contract Audit Manual
CAS                   Cost Accounting Standards
DCAA                  Defense Contract Audit Agency
LMFS                  Lockheed Martin Federal Systems
LMTAS                 Lockheed Martin Tactical Aircraft Systems
IPT                   Integrated Product Teams
NAVAIR                Naval Air Systems Command
Table of Contents

Executive Summary                                                            i

Introduction
     Background                                                              1
     Objectives                                                              1

Finding
     Adequacy of Procedures for Audit Participation on Integrated Product
       Teams                                                                 3

Appendixes
     A. Evaluation Process
         Scope and Methodology                                              13
         Management Control Program Review                                  14
         Prior Coverage                                                     14
     B. Report Distribution                                                 15


Management Comments
     Defense Contract Audit Agency                                          17
                       Office of the Inspector General, DoD
Report No. D-2001-6-003                                             March 23, 2001
 (Project No. D2000-D000OA-0125, Formerly 0OC-9110)

                   Defense Contract Audit Agency’s Role in
                          Integrated Product Teams

                                Executive Summary

Introduction. In 1995, the Secretary of Defense directed that DoD use Integrated
Product Teams (IPTs) as a preferred oversight and management approach in acquiring
goods and services. An IPT is composed of representatives from all appropriate
functional disciplines working together to facilitate decision-making. The concept was
developed to streamline the acquisition process. The Defense Contract Audit Agency
(DCAA) auditors support the acquisition process by participating on IPTs that address
contract proposal preparation, review, negotiation, and contract award. From FY 1995
through FY 1999, the number of DCAA forward-pricing activities decreased from
16,514 to 9,834 (60 percent). However, the number of forward-pricing activities
involving IPTs increased from 63 to 498 (690 percent).

Objectives. The overall objective was to evaluate the role of DCAA auditors in the
IPT process. Specifically, we evaluated the nature, extent, and timing of DCAA
participation, and the benefits achieved from timely audits of proposal parts as the
contractor submits them. We also reviewed the adequacy of management control
programs relating to the area evaluated at DCAA field audit offices (Appendix A).

Results. DCAA has embraced the IPT concept and the auditors have developed good
working relationships with team members while maintaining their independence.
However, the requestor of audit services did not always know what specific services
were required or available, and audit acknowledgments did not always explain what the
auditors could or could not provide. Further, audit procedures could be improved for
responding to requests for services, documenting team coordination, planning the IPT
proposal reviews, and reporting the audit results. Audit file documentation frequently
did not evidence auditor participation on an IPT. Budgeted and actual hours varied
substantially in some instances, and standard audit programs at two offices were not
adjusted to reflect the teaming arrangements. Several reports did not mention the IPT
process, and one office misinterpreted the audit guidance on reporting on the results of
an IPT process.

Improved information is needed for both requestors of DCAA audits and the auditors
on DCAA participation in IPTs. For details of the audit results, see the Finding section
of the report.

Summary of Recommendations. We recommend that the Director, Defense Contract
Audit Agency, develop protocols for the use of requestors of IPT audit services. The
protocols can explain auditor roles and responsibilities and what services the auditors
can provide, as well as what they need from the IPT chairperson. We also recommend
that the Director, Defense Contract Audit Agency, develop additional guidance for
auditor participation in IPTs. The guidance should cover acknowledgment of requests
for audit support, documentation of team proceedings and conference times, and special
reporting procedures.

Management Comments. The Defense Contract Audit Agency concurred in principle
with the four recommendations but reserved full concurrence pending the results of an
analysis of the Agency's Integrated Product Team historical performance. The analysis
will be performed by a joint Headquarters/Regional team and be completed by August
2001. The Defense Contract Audit Agency fully expects that, as a result of the
resources and effort that will be committed, the actions that will be taken by the end of
CY 2001 will adequately address the recommendations. Refer to the Finding section of
the report for a discussion of management comments on the finding and to the
Management Comments section of the report for the complete text of the comments.

Evaluation Response. Management comments were generally responsive to the intent
of our recommendations.




                                            ii
Background
     On May 10, 1995, the Secretary of Defense issued a memorandum on the use of
     Integrated Product Teams (IPTs). The memo directed that when it makes sense,
     the new management concept should be used for all acquisitions. The DoD
     policy is to perform as many acquisition functions as possible, including
     oversight and review, using IPTs. The IPTs are composed of representatives
     from all appropriate functional disciplines. A pricing IPT is one of many IPTs
     that might support Defense acquisitions. A pricing IPT is assembled to review a
     contractor’s proposal, provide information directly to the contracting officer on
     a real-time basis, and avoid redundant and duplicative proposal preparation
     procedures. The use of an IPT in pricing is designed to expedite contract
     awards by replacing the traditional pricing and negotiation process with a
     concurrent team approach.

     The DoD Directive 5000.2-R, “Mandatory Procedures for Major Defense
     Acquisition Programs and Major Automated Information Systems,” May 11,
     1999, provides general guidelines for IPT procedures, roles, and
     responsibilities. Other DoD guidance on IPTs includes the “Rules of the Road:
     A Guide for Leading Successful Integrated Product Teams,” 1999, the “DoD
     Guide to Integrated Product and Process Development,” 1996, and the Defense
     Acquisition Deskbook.

     Defense Contract Audit Agency. On January 23, 1996, Defense Contract
     Audit Agency (DCAA) issued a Memorandum for Regional Directors, “Audit
     Guidance on DCAA Participation in Integrated Product Teams and Other
     Streamlined Acquisition Initiatives.” The guidance memorandum stated that
     auditors should fully participate in IPTs and related initiatives that require
     financial advisory services. However, to maintain audit independence, DCAA
     may not prepare the contractor’s proposal. The DCAA role is to provide advice
     to the contracting officer during the proposal development on documentation
     requirements to support pricing information, contractor estimating techniques,
     any impact of outstanding estimating system deficiencies, and contractor
     compliance with the cost accounting standards.

     The IPT process differs from other contract proposals or forward pricing audits
     in that the auditor participates during the proposal buildup. The contracting
     officer requests audit assistance before the contractor has completed the entire
     proposal package. Information and guidance on the auditor’s role on IPTs is
     incorporated into the DCAA Audit Pamphlet 7641.90, Information for
     Contractors, which is accessible from the DCAA web site at
     http://www.dcaa.mil.

Objectives
     The overall objective was to evaluate the role of DCAA auditors in IPTs. We
     focused on teams established to evaluate contractor proposals. Specifically, we
     evaluated the nature, extent, and timing of DCAA participation and the benefits
     achieved from timely audits of proposal parts as the contractor submits them.

                                         1
We also reviewed the reporting of audit results, monetary benefits, and the
adequacy of management control programs related to the area evaluated at
DCAA field audit offices. (See Appendix A.)




                                    2
           Adequacy of Procedures for Audit
           Participation on Integrated Product
           Teams
           The DCAA had embraced the IPT concept and the auditors had
           developed good working relationships with team members while
           maintaining their independence. However, the requestor of IPT audit
           services did not always know what services DCAA auditors could
           provide. Further, audit procedures for responding to requests for
           services, documenting team coordination, planning the IPT proposal
           reviews, and reporting the audit results could be improved. In 18 of 39
           audit assignments, the requestor of audit services did not specify what
           services were required and 10 of the 18 did not address DCAA
           participation on an IPT. Audit acknowledgments were responsive to the
           requests but did not explain what services the auditors could or could not
           provide. Of 39 audit assignments, 9 did not adequately document
           auditor participation on an IPT. Budgeted and actual hours varied
           substantially in some instances, and auditors at two field audit offices had
           not adjusted the standard audit programs to reflect the teaming
           arrangements. Of the 39 reports that resulted from the audit
           assignments, 12 did not mention the IPT process, and one office
           misinterpreted the audit guidance for reporting on the results of the team
           review.

           Improved information is needed for both requestors of DCAA audits and
           the auditors on participation in IPTs. DCAA also needs to improve its
           acknowledgment of requests, documentation of meetings, and reporting.

DCAA Participation on Integrated Teams
    Increased Use of IPTs. DCAA participation on IPTs has increased
    significantly since the Secretary of Defense directed the use of this management
    approach to acquisition. DCAA has performed fewer conventional forward-
    pricing reviews as the requests for audit participation in acquisition teaming
    arrangements has increased. For example, at Northrop Grumman Corporation,
    the DCAA effort spent on IPTs has increased from about 11 percent of all price
    proposal reviews in 1997 to 50 percent of all proposal reviews in 1999. At
    Lockheed Martin Tactical Aircraft Systems (LMTAS), auditors spent 28 percent
    of proposal review hours on IPTs in FY 1997. As of the second quarter of
    FY 2000, IPT hours comprised 52 percent of all price proposal review activity.
    Agency-wide, DCAA has experienced an increase in requests for auditor
    participation in IPTs even though proposal reviews have declined overall, as
    shown in the following Table.




                                        3
                     Summary of DCAA Forward-Pricing Activity

                                 ($ in Billions)

                            FY 95                  FY 97               FY 99
    Activity            No.          $       No.           $.       No.         $
  Price Proposals        8,418      $140.7   4,571         $56.7     3,148     $41.2
       IPTs                 63         0.3     402          14.2       498      19.2
Specified Elements       1,224        20.7     775            7.7      553        4.5
Agreed Upon Proc.        3,295               3,983                   3,199
 Rate Agreements         2,795               2,313                   2,141
  Other Forward            719                 440                     295
      Pricing
       Totals           16,514   $ 161.7     12,484        $78.6     9,834     $64.9


         The participation in IPTs has resulted in increased audit staff time to
 complete the forward-pricing/contract proposal audits. Since 1996, DCAA has
 spent an average of three times as many hours completing a forward-pricing
 review while participating in an IPT than the number of hours spent on a
 conventional price proposal review. For example, in FY 1996 DCAA spent an
 average 63.1 hours on a price proposal review and 184.5 hours on an IPT. In
 FY 2000, the average price proposal review took 72.9 hours whereas the
 average IPT consumed 242.4 hours. Although the increased time may be
 attributed to more time spent in team meetings and other factors, we were
 unable to determine exactly how the additional time was spent because of
 insufficient documentation in the audit files.

          We spoke to 8 auditors who had completed 28 of the 39 audit
 assignments evaluated. With one exception, they believed the IPT process was
 helpful. However, they recognized that the process required more time to
 complete an audit than conventional audits. The benefits are derived from better
 understanding of program requirements and access to technical information.
 Based on limited inquiries at four program offices, the program offices
 responded that the time to award a contract had decreased considerably.
 However, only two of the four program offices could provide specific examples
 to illustrate reduced acquisition time. Other benefits included improved
 communications and better understanding of program requirements. All four
 program offices agreed that the greatest difficulty is the availability of team
 members.

        DCAA has included guidance on participation on IPTs in its Contract
 Audit Manual and provided information on audit participation in IPTs in the
 pamphlet on “Information for Contractors,” which can be accessed from the
 DCAA web site. However, audit guidance can be improved to specifically
 cover the following:

        •   Clarification of audit services requested;

        •   Improved documentation of auditor role;

                                         4
            •   Improved audit planning; and

            •   Reporting.

     DCAA should issue information to the acquisition community that outlines its
     policies and procedures relating to auditor participation in IPTs and should
     clarify to its auditors what is and what is not participation in an IPT.

Clarification of IPT Audit Services
     Documentation of Early Agreement on Audit Services. In 18 of 39 audit
     assignments reviewed, the procurement office request for audit services did not
     specify what type of audit services would be needed, and 10 of the 18 requests
     did not specify that the requested support involved participation in an IPT. In 4
     of the 18 audit assignments, a request for specific services was received after
     the team had reviewed the complete proposal but before an audit report was
     issued. The following two examples illustrate the wide range of differences
     observed in documentation to indicate agreement on requested audit services:

            •   In one example at Northrop Grumman, the only record of an audit
                request was a note on a telephone message from the procurement
                office. DCAA received no request for audit services. The only
                source of program office information on expected audit services was
                a weekly activity report prepared by DCAA.

            •   At LMTAS, the Air Force provided an example of a useful request
                that summarized agreements and discussions held at a pre-proposal
                conference, confirming oral agreements reached with DCAA and
                other Government personnel to perform in-process audits of material
                quotes.

     Because requestors may not know the scope of audit services that will be needed
     early in the acquisition process, DCAA must define what services are available
     and what the potential constraints for audit participation may be for each audit.
     Although other participants on a team may sign an agreement to outline tasks to
     be performed and clarify expectations, DCAA Contract Audit Manual (CAM)
     chapter 1-808, Memorandum of Agreement, states that the auditing standard on
     independence precludes DCAA from entering into an agreement on audit scope.
     However, there should be a clear understanding of the audit services that are to
     be provided. Instead of signing an agreement, the auditor may satisfy the
     customer’s needs by communicating to the team leader in writing the auditor’s
     expected role on the team. Therefore, DCAA should consider developing a pro
     forma acknowledgment letter to explain what services auditors can or cannot
     provide, similar to the illustration in CAM Figure 1-8-1, Notification Letter to
     Contractor, which addresses DCAA participation on process action teams. The
     notification letter outlines conditions for auditor participation.

     Non-IPT Requests for Audit Services. Not all requests for early participation
     in the acquisition process may have involved the support of an IPT. In two
     cases at Northrop Grumman and two cases at Lockheed Martin Federal Systems


                                         5
(LMFS), neither the documentation in the audit file nor the information
provided to the requestor appeared to support classifying the audit as an IPT
assignment. However, when DCAA was requested to participate early in a
proposal review, the audit offices established the assignments as IPTs in
anticipation of above average audit effort being required.

At LMFS, Naval Air Systems Command (NAVAIR) requested early DCAA
participation in the Alpha Acquisition process, the NAVAIR term for the IPT
process. However, the two assignments we evaluated covered minor dollar
amounts ($1.5 and $5.3 million, respectively), and less than 100 hours were
spent in each case. The services DCAA rendered did not appear to require
more interaction with contracting parties and technical specialists than would be
expected during a conventional audit. In one case at Northrop Grumman, the
Program Office asked DCAA to provide rates and factors only. A second
request merely asked DCAA for early support to streamline the technical
evaluation/audit process. In each case, the auditor provided rate information
based on existing forward pricing rates and spent 90 and 79 hours, respectively.

The “Rules of the Road” guide stresses some significant operating principles,
including the need for an IPT charter that should contain:

       •   a clear mission statement, to include the specific purpose and
           objective of the IPT;

       •   identification of the output product and the customer;

       •   the time frame by which the product is to be produced; and

       •   the IPT membership, including all the cross-functional disciplines
           necessary to achieve the IPT objective.

The guidebook cautions that IPTs are not intended to solve every problem and
should be distinguished from meetings. IPTs are focused on building successful
acquisition programs, but not all issues for resolution or assigned actions require
convening an IPT.

Auditors need to know whether a formal acquisition IPT with a charter has been
established before concluding that requests to participate in early meetings
constitute participation in an IPT. Because teaming arrangements are
increasing, and the time taken to participate in IPTs is more than expended on
conventional audits, the DCAA management information system needs to be
able to reflect differences between IPT assignments and other forward-pricing
activity. DCAA issued a Memorandum for Regional Directors on Audit
Management Guidance for Integrated Product Team (IPT) Assignments,
98-OWD-076(R), August 10, 1998, to clarify previous audit guidance on IPTs
and provide attributes for an IPT. However, if the work involves limited
technical assistance, or provision of readily available information, the
assignment should not be classified as participation in an IPT.




                                     6
Documentation of the Audit Role
    Independence is a key concern of auditors participating in IPTs. The DCAA
    auditor must comply with the Generally Accepted Government Auditing
    Standards as implemented by DCAA in CAM, chapter 2-203, Independence.
    The CAM guidance requires the auditor to maintain an independent attitude and
    appearance in all matters related to the audit work. To safeguard auditor
    independence during IPT participation, CAM chapter 1-806, Auditor’s Role on
    DoD IPTs and Related Streamlined Acquisition Initiatives, instructs the auditor
    not to assist the contractor in actually preparing the contractor’s proposal.
    Contractor management should approve proposal parts before the auditor begins
    the audit. DCAA should not review unapproved, in-process estimates.

    Overall, the DCAA auditors participating in IPTs had sufficient training and
    experience to recognize when to withdraw from a teaming arrangement or to
    declare a proposal not ready for their review. Therefore, nothing came to our
    attention to indicate that auditors were unable to maintain their independence.
    However, documentation of team coordination and information exchange could
    be improved.

    Audit File Documentation on Team Coordination. Of the 39 audit
    assignments reviewed, 12 assignments at Northrop Grumman, 14 assignments at
    LMTAS, and 4 assignments at LMFS included adequate examples of
    documentation of exchanges with team participants. In some instances the
    documentation was excellent and facilitated an understanding of the purpose and
    scope of the team efforts. The conference notes were particularly important
    when the initial requests for audit support did not clearly explain what was
    expected of the auditors.

    However, the remaining nine audit assignments did not provide sufficient
    information to show the extent or nature of teaming arrangements. Inadequate
    documentation in two of the four assignments at FS indicated that auditor
    participation in an IPT was probably limited and that the assignments may have
    been misclassified. Of 21 assignments at TAS, 7 should have included more
    information on the extent of teaming that had occurred. For example, the
    requests for audit services in six of the seven assignments did not address
    auditor participation on IPTs. Auditors participating in IPTs need to document
    their involvement to distinguish the IPT process from routine meetings and
    conferences that auditors participate in as part of regular audits. The
    documentation should also safeguard them from any appearance of impairments
    to auditor independence during the IPT process and keep supervisory auditors
    informed of team activities.

    To facilitate DCAA supervision of the auditor’s work on the team and to ensure
    that auditors participating in teaming arrangements maintain their independence,
    auditors should document key meetings and exchanges of information in the
    standard workpaper sections designated for that purpose, or where appropriate.
    CAM chapter 4, General Audit Requirements, provides guidance on audit
    coordination with contract administration personnel, contractor internal and
    external auditors, and conferences with the contractor. None of the sections


                                        7
    addresses the special concerns inherent in teaming arrangements, and the CAM
    guidance on the auditor’s role on IPTs does not emphasize the need for
    documentation of team meetings and discussions. The nature and extent of
    documentation on coordination varied in the audit files.

    DoD Procedures for IPTs. DoD program offices had different procedures for
    implementing DoD policy on the use of IPTs in acquisition. The F-16 program
    office, LMTAS, DCMA, and DCAA had jointly developed a detailed process,
    Span Time of Acquisition Reduction, or “STAR,” and had provided an
    extensive briefing to the auditors on the process that they found highly
    informative and useful. The B-2 office had developed a description for its “B-2
    Paradigm” process. The F-22 program office responded that no procedures
    were available for its “One Pass” process, and auditors were less familiar with
    either of these procedures or those developed by NAVAIR to explain its Alpha
    Acquisition method. Although DoD guidance recommends that the program
    leader develop a charter for each IPT, auditors were generally unaware that
    such a document might be available to explain the specific acquisition
    objectives. Of the 39 assignments evaluated, only one included a copy of the
    IPT charter.

    Although auditors typically participated in initial meetings at which they
    obtained timeline charts that identified the phases most crucial to auditor
    involvement, they stated that more familiarity with the overall process would be
    useful. One supervisory auditor expressed a need for more up front information
    about the acquisition processes used, believing it would greatly facilitate
    planning of audit resource allocation.

Audit Planning
    Although audit coverage appeared adequate, audit planning, including risk
    assessments and the recording of budgeted and actual audit hours expended
    could be improved at two of the three offices visited.

    Preliminary Planning and Risk Assessments. The 39 audit assignments
    included preliminary audit programs and risk assessments. However, one office
    did not incorporate the planning considerations in CAM chapter 3-300, Internal
    Control Audit Planning Summary, and 25 of 33 assignments at 2 locations did
    not discuss contractor compliance with the cost accounting standards.

           Resident Audit Office at Northrop Grumman Corporation. Audit
    planning was adequate and risk assessments were very good for the 12 audit
    assignments evaluated at the Northrop Grumman resident audit office. The
    Northrop Grumman audit office benefited from special regional guidance for
    implementing CAM guidance. The regional guidance provided instruction as to
    how risk assessments should be developed; what risk factor considerations
    should be used; and how low, moderate, or high risk should be assessed. The
    audit guidance required the auditor to provide source and explanation for all
    assessments. The result was that the auditor was directed to exercise judgment
    and not merely post the outcome of other audits.


                                       8
        Resident Audit Office at LMTAS. In 9 of 21 audit assignments
covering large procurement dollars over $5 million, the auditors used standard
audit programs intended for small procurements under $5 million dollars. The
DCAA also found this condition during a FY 1999 quality assurance review of
price proposals. Based on that review, DCAA developed new proposal review
guidance effective February 4, 2000, that should correct the condition.

        Planning of Cost Accounting Standards Compliance Testing. None
of the three audit offices had documented the need for tests of contractor
compliance with Cost Accounting Standards (CAS) 401 and 402 in either the
risk assessment workpaper section or the detailed audit programs. CAM
chapter 8-305.2, Compliance Review Testing, requires that testing of the
standards be planned during the performance of proposal evaluations or incurred
cost audits. In response to a recommendation in Report No. PO 99-6-001,
January 11, 1999, “DCAA Audits of Contractor Compliance with Cost
Accounting Standards,” DCAA updated standard forward pricing audit
programs in 1998 to include a risk assessment that should be performed to
determine whether testing is required during the subject audit. However, none
of the audits we reviewed that were completed in FYs 1999 or 2000 used the
updated audit programs. DCAA also identified this condition during the FY
1999 quality assurance review. Because the new Audit Planning and
Performance System incorporates preliminary audit procedures for considering
CAS implications for proposals exceeding $5 million, we are making no further
recommendation at this time.

Budgeted versus Actual Hours. At two locations, the actual hours recorded in
the audit program did not identify time spent in teaming activities, such as
meetings and conferences. Without an accurate recording of how audit effort
was spent, the offices had no baseline for budgeting new effort.

        At Northrop Grumman Corporation, audit programs were adequate and
procedures were identified to teaming efforts with hours spread among broad
tasks performed. However, it was not possible to determine how many of the
hours were spent in performing audit analysis, engaging in teaming activities, or
providing financial advisory services, if any. In two assignments the actual
hours recorded in the audit assignment also varied from the actual hours
recorded in the management information system. In one of the two
assignments, no actual hours were noted in the assignment against the 410
budgeted hours, but the management information system showed 754 hours
spent. In the other, the audit assignment showed 199 hours incurred compared
to the 651 recorded in the management information system.

        The audit programs in the 21 assignments at Lockheed Martin
Corporation did not allocate hours to individual review procedures, and the
programs were not tailored to account for the time spent in teaming
arrangements or other non-audit tasks. Only the total hours spent reviewing a
cost element were recorded. One entry merely showed 380 hours to review
material costs. Audit programs were not adjusted to explain special effort
involved in IPT work. Budgeted hours in 3 of the 21 assignments were
considerably lower than the actual hours incurred.



                                    9
    The CAM chapter 3-103, The Audit Program, instructs auditors to tailor the
    standard audit program based on documented risk assessments and the specific
    audit objectives. CAM chapter 3-103.h requires the auditor to reference each
    audit step to the working paper(s) where the step was accomplished and to
    record the actual hours expended on each step or group of steps. Further, the
    actual hours recorded in the audit program should agree with the time reported
    in the management information system. Given the apparent significant increase
    in time spent on an IPT review versus a traditional proposal review, the accurate
    recording of hours is needed for effective management.

Audit Report Procedures
    An audit report issued as a result of auditor participation on an IPT should
    mention that fact and provide some information about the IPT process used, for
    example, the extent of DCAA participation and access to technical information.
    Before preparing the audit report, the auditor should coordinate with the
    contracting officer to determine any special reporting requirements. The DCAA
    audit guidance contains no special reporting provisions for proposal reviews
    performed as part of an IPT process. Based on services requested, CAM
    chapter 1-806 directs the auditors to CAM chapter 10-300, Audit Reports on
    Price Proposals, for reporting on either a comprehensive audit, a review of
    specified cost elements only, or the application of agreed-upon procedures.

    Reporting on the IPT Process. Of 39 audit reports reviewed, 12 did not
    mention the IPT process. Nine of the 12 reports were issued from the LMTAS
    resident audit office and the remaining 3 from the Northrop Grumman
    residency. The remaining 27 reports made some reference to the IPT process
    but did not explain to what extent that affected the audit. For example, because
    auditors participated in the pricing review before the contractor had completed
    the proposal package, they may or may not have had a comprehensive bill of
    material from which to draw a statistical sample. Further, although the DCAA
    audit reports follow a standard format that includes specific audit areas that must
    be addressed, the reference to the IPT process was included in different sections
    in different reports. The 6 reports at LMFS referred to the Alpha contracting
    process or an IPT in the “Subject” section or the “Explanatory Notes.” CAM
    reporting guidance does not address the need for comments on the IPT process,
    and the audit offices used different procedures.

    Audit Opinion. The limited CAM guidance for reporting the results of an IPT
    proposal review may have been misinterpreted at one field audit office. At the
    LMFS field office, all the reports issued as part of an IPT process covered only
    “agreed-upon procedures” and expressed no opinion as prescribed in CAM
    chapter 10-306.4, Results of Application of Agreed-upon Procedures. The
    DCAA auditors believed it was inappropriate to express an audit opinion based
    on reviews performed as part of an IPT and, therefore, chose the reporting
    procedures for applications of agreed-upon procedures. These reviews are
    evaluations of limited information, such as verification of current labor or
    overhead rates, verification of estimating techniques, or application of certain
    attest procedures. However, at least three of the six assignments showed
    specific requests for DCAA audits of specified cost element with no restrictions
    on audit scope.
                                        10
    CAM chapter 1-806(f) advises the auditor to follow the appropriate reporting
    procedures in CAM chapter 10 for each specific review. The guidance also
    states that the IPT reports should express an opinion, although the opinion will
    vary depending on the services performed. If no restrictions were imposed on
    the scope of review of a particular proposal element, DCAA guidance would
    require a report on specified cost element with an audit opinion expressed.

Summary
    Because of the expanding role of IPTs and the resources that are needed to
    support the IPTs, DCAA needs to clarify its guidance to its auditors and the
    information to its clients on the use of auditors in the IPT process. DCAA
    should enhance its CAM guidance and provide a readily available description of
    protocols for the program officials to use in requesting audit services. The
    protocols should be based on the existing guidance and information in the CAM
    and the audit pamphlet “Information for Contractors,” supplemented with best
    practices and lessons learned.

Management Comments on the Finding and Evaluation
Response
    Management Comments. The DCAA response to the draft report requested
    clarification on a few statements. On the increased use of IPTs, DCAA stated
    that the audit files contained some support to indicate that meetings had
    occurred. On non-IPT requests for audit services, DCAA also disagreed with
    one of the four cases identified as not having adequate documentation to support
    classifying the audit as an IPT. The DCAA also believed a statement to be
    inaccurate that none of the three audit offices had documented the need for tests
    of contractor compliance with CAS 401 and 402 in either the risk assessment
    workpaper section or the detailed audit programs. According to DCAA, the
    IPT audit assignments evaluated at one office used agreed-upon-procedures that
    typically would not call for CAS compliance testing. In addition, DCAA noted
    that the SPO, LMTAS, DCMA, and DCAA jointly developed the STAR
    process.

    Evaluation Response. Documentation was not sufficient to record how much
    time the auditor spent in meetings. An e-mail or single line item listing of a
    meeting does not provide information on what occurred at the meeting or prove
    that the auditor attended. We also questioned the practice of routinely
    establishing an IPT merely because the requester used the term "IPT." Where
    the request for audit support is limited to rates and factors or specified cost
    elements, coordination with the requestor is advisable to ensure that the scope of
    review will require extensive audit participation in meetings or financial
    advisory services other than providing existing information. We believed the
    practice at one audit office to limit the scope of all IPT effort to agreed-upon-
    procedures was inappropriate in part because it resulted in CAS compliance




                                        11
    testing not being performed or even considered. As a result of DCAA
    comments, we modified the report to identify the joint development of the
    STAR process.

Recommendations
    We recommend that the Director, Defense Contract Audit Agency:

    1. Develop protocols for use of program officials on auditor participation
    on acquisition teams. The protocols could explain the auditor’s role and
    responsibilities, and what services the auditor can provide, as well as what
    the auditor needs from the Integrated Product Team chair.

    2. Develop a pro forma acknowledgment letter to be issued in response to
    non-specific requests for audit support to a team. The pro forma request
    should describe audit services that can be provided and identify audit
    constraints.

    3. Issue guidance to emphasize the need to record the nature of information
    exchanged during team meetings and to record conference time in the audit
    program.

    4. Develop reporting procedures that address the special circumstances that
    should be considered when an audit is completed as a result of a team
    process. Audit guidance should require that the audit report discuss the
    audit participation in an Integrated Product Team evaluation.

    Management Comments. The DCAA concurred in principle with the
    recommendations but reserved full concurrence pending the results of an
    analysis of the Agency's Integrated Product Team historical performance. The
    analysis will be performed by a joint Headquarters/Regional team and completed
    by August 2001. The DCAA expected that the actions to be taken by the end of
    Calendar Year 2001 would adequately address the recommendations.

    Evaluation Response. The proposed actions are generally responsive to the
    intent of our recommendations.




                                       12
Appendix A. Evaluation Process
Scope and Methodology
    Work Performed. We visited three DCAA field audit offices that participated
    in IPTs at Lockheed Martin Tactical Aircraft Systems, Northrop Grumman
    Corporation, and Lockheed Martin Federal Systems. We also met and
    interviewed Administrative Contracting Officers at those locations.

           •   To determine the nature, extent, and adequacy of DCAA
               participation in IPTs, we reviewed 39 forward-pricing audits
               completed during FY 1997 through the date of our field visits during
               the second quarter of FY 2000.

           •   To obtain information on reductions in acquisition cycle times, we
               requested data from the B-2, F-16, and F-22 Special Program Offices
               and the Naval Air Systems Command.

           •   To obtain support for information gathered at field audit offices, we
               also met with the resident Administrative Contracting Officers
               participating in the IPTs at LMTAS and NGC.

    Deleted Scope. We deleted the announced objective to evaluate the audit
    contribution to the overall procurement cycle-time reduction. Initial information
    gathered indicated that the data would not be available. We also deleted the
    objective to review management control programs at the DoD Military
    Department buying commands because it was outside the scope of the primary
    evaluation.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the DCAA Agency Management Information System to identify field audit
    offices participating in IPTs. Although we did not perform a formal reliability
    assessment of the computer processed data, we determined that the assignment
    numbers, dollars examined, and questioned costs for the selected audit
    assignments generally agreed with the computer-processed data. We did not
    find errors that would preclude use of the data to meet the evaluation objectives
    or that would change our report conclusions.

    Universe and Sample. Using the DCAA Agency Management Information
    System, we requested information on all audits performed during a 3-year
    period ending September 30, 1999. Based on the results, we judgmentally
    selected three field audit offices that had a large number of audit assignments
    sufficient for an evaluation and that covered major procurement programs. At
    LMTAS, we reviewed all but one of 22 IPT assignments completed during
    FYs 1998 and 1999. We did not evaluate one assignment because it was similar
    to several other assignments included in the sample. At Northrop Grumman and




                                       13
    LMFS, we evaluated all IPT assignments completed during FYs 1997 through
    the date of the field visits in March 2000, 12 and 6 audit assignments,
    respectively.

    Evaluation Type, Dates, and Standards. We performed this economy and
    efficiency evaluation from January 2000 through November 2000 according to
    standards implemented by the Inspector General, DoD. The project was
    suspended from August to November to complete higher priority work.
    Accordingly, we included tests of management controls at field audit offices
    related to auditor participation in the IPT process.

    Contacts During the Evaluation. We visited or contacted individuals within
    DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of controls.

    Scope of the Review of the Management Control Program. We reviewed the
    DCAA management controls over forward-pricing audits performed as part of
    an IPT process. Specifically, we reviewed management controls over audit
    programs, documentation of coordination with team members, and audit
    reporting.

    Adequacy of Management Controls. DCAA management controls were
    adequate in that we identified no material management control weaknesses.

Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                       14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
Under Secretary of Defense (Comptroller/Chief Financial Officer)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency




                                          15
.




    16
Defense Contract Audit Agency Comments




                       17
     Final Report
      Reference




     Page 5




     Page 8




     Page 7 revised




18
 Final Report
  Reference




Pages 11 and
12




                19
20
21
Evaluation Team Members
This report was prepared by the Deputy Assistant Inspector General for Audit
Policy and Oversight, Office of the Assistant Inspector General for Auditing,
DoD.


Patricia A. Brannin
Wayne C. Berry
Madelaine E. Fusfield




                                   22
